In The SUPREME COURT Of The UNITED STATES
No.

KRIS KASZUBA dba Hollywood Group
Petitioner,
v.
Andre Iancu, Director of USPTO
Intervenor

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 3,145 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 1, 2021

/AB/ electronic signature
Antonia Bebar
2683 Via de la Valle, # G246
San Diego, CA 92014
antoniabeb@gmail.com

